Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
to the Picuris Pueblo Police DepartmentNew Mexico

Report No. GR-60-02-003
 
July 2002

Office of the Inspector General

EXECUTIVE SUMMARY

The Office of the Inspector General (OIG), Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Picuris Pueblo, New Mexico, Police Department (PPPD).  The purpose of the grants is to enhance community policing.  The PPPD was awarded a total of $728,125 to hire eight new full-time and one new part-time police officers, and to provide equipment and training for the police officers.
We found the PPPD to be in material non-compliance with COPS' grant requirements.  We reviewed the PPPD's compliance with six essential grant conditions and except for budgeting for local officer positions and the types of community policing activities that were being performed, we found weaknesses in each of the areas we tested:  hiring of additional officers, local match requirements, reimbursement requests, and retention of officer positions.  As a result of the deficiencies identified below, we question $495,449 in grant funds received and recommend an additional $60,277 be put to better use. 

The PPPD did not increase its police force by the number of officers funded by the COPS hiring grants.  In our judgment, the grantee is in violation of COPS' non-supplanting requirement.
The PPPD did not meet its local match for the FAST grant.
The PPPD charged unallowable and unsupported costs to the FAST ($5,008), UHP ($50,635), TRGP Hiring ($89,485), and TRGP Equipment/Training ($28,577) grants.
The PPPD has not retained the FAST and UHP 1 grant funded officer positions.  Further, because the PPPD used its TRGP grant to supplant local funding, the positions funded by the TRGP grant will not be retained.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.